D-2010-022                              November 20, 2009




      Management of Nontactical Vehicles in Support
             of Operation Iraqi Freedom
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CENTCOM                       U.S. Central Command
COR                           Contracting Officer’s Representative
FAR                           Federal Acquisition Regulation
GSA                           General Services Administration
JCC-I/A                       Joint Contracting Command-Iraq/Afghanistan
MNC-I                         Multi-National Corps-Iraq
MNF-I                         Multi-National Force-Iraq
MNSTC-I                       Multi-National Security Transition Command-Iraq
MSD                           Multi-National Security Transition Command-Iraq Support
                                  Division
NTV                           Nontactical Vehicle
RCC                           Regional Contracting Centers
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202-4704 





                                                                        NOV 2 0 2009


MEMORANDUM FOR COMMANDER, MULTI-NATIONAL FORCE-IRAQ
               COMMANDER, MULTI-NATIONAL CORPS-IRAQ
               COMMANDER, JOINT CONTRACTING COMMAND­
                 IRAQIAFGHANISTAN

SUBJECT: Management of Nontactical Vehicles in Support of Operation Iraqi Freedom
         (Project No . D2008-DOOOLH-0235.000)

We are providing this report for your information and use. We conducted this audit
pursuant to Public Law 110-181, "The National Defense Authorization Act for Fiscal
Year 2008," section 842, "Investigation of Waste, Fraud, and Abuse in Wartime
Contracts and Contracting Processes in Iraq and Afghanistan," January 28,2008 . We
considered management comments on a draft of this report in preparing the final report.
The comments conformed to the requirements of DOD Directive 7650.3; therefore,
additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).



                                              tJL~~
                                             Alice F. Carey
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2010-022 (Project No. D2008-D000LH-0235.000)                               November 20, 2009


               Results in Brief: Management of Nontactical
               Vehicles in Support of Operation Iraqi
               Freedom
                                                           as contracting officer’s representatives (CORs).
What We Did                                                Centralizing NTV management will also facilitate
                                                           acquisition of more NTVs per contract than
Our overall audit objective was to determine whether
                                                           decentralized processes, which typically fill
contracting for nontactical vehicles (NTVs) in
                                                           individual requirements. Decreasing the number of
support of Operation Iraqi Freedom was effective.
                                                           contracts should improve the contract file
Specifically, we audited NTV contracting and
                                                           deficiencies we identified.
management processes.
                                                           The issues we identified constitute weaknesses in the
What We Found                                              internal controls over NTV management.
Although Multi-National Force-Iraq (MNF-I) and             Implementing our recommendations will strengthen
Multi-National Corps-Iraq (MNC-I) implemented              controls by improving NTV data reliability, reducing
some corrective actions to strengthen controls over        NTV costs, increasing contracting efficiencies, and
NTV management, further actions are needed to              reducing the occurrence of contract file deficiencies.
improve the accountability of NTVs, as well as
management of the size and distribution of the NTV         What We Recommend
fleet. Plans to decrease the U.S. presence in Iraq
                                                           We recommend that the Commander, MNF-I:
highlight the need to improve visibility of NTVs.
                                                              appoint an NTV Program Manager to implement
We estimate General Services Administration (GSA)
                                                               NTV policy and centrally manage NTV
NTVs cost about $70 million to purchase and all
                                                               requirements and acquisition;
9,793 NTVs in the fleet cost about $109.8 million
annually to lease and maintain. However, NTV                  implement a standardized procedure for NTV
records were unreliable for making NTV allocation              registration; and
and distribution decisions. For example, 3,854 GSA            implement controls to accurately record and
NTVs (about 74 percent) were not accounted for                 classify NTVs.
properly. In addition, 531 GSA NTVs (about
10 percent) were not accounted for at all. These           We also recommend that the Commander, Joint
vehicles cost $11.4 million to acquire and                 Contracting Command-Iraq/Afghanistan (JCC-I/A)
$5.3 million annually to lease and maintain.               direct contracting officers to appoint NTV
                                                           managers as CORs for local NTV lease contracts.
Without accurate NTV records, DOD cannot make
effective decisions regarding the NTV fleet. MNF-I         Management Comments and
policy did not establish a standard procedure for          Our Response
NTV registration to ensure NTV records were
accurate. In addition, MNF-I and MNC-I did not             Management comments were responsive to the
have a centralized strategy to identify and manage         recommendations. MNF-I and JCC-I/A agreed with
NTV requirements or acquisition. Appointing an             the finding and recommendations. No additional
NTV Program Manager and centralizing these                 comments are required. Although not required to
processes will help identify long-term requirements        comment, U.S. Central Command and MNC-I agreed
and help acquire NTVs using the most cost-effective        with the finding and recommendations. We plan to
approach. Centralization may also improve contract         follow up in 6 months to ensure that the commands
administration of local leases because NTV                 implemented the agreed-upon actions.
managers, who register and report NTVs, could act


                                                       i
Report No. D-2010-022 (Project No. D2008-D000LH-0235.000)            November 20, 2009

Recommendations Table
Management                         Recommendations          No Additional Comments
                                   Requiring Comment        Required
Commander, Multi-National Force-                            A.1.
Iraq
Commander, Joint Contracting                                A.2.
Command-Iraq/Afghanistan




                                           ii
Table of Contents

Introduction                                                               1


      Objectives                                                           1

      Background                                                           1

      Review of Internal Controls                                          4


Finding. Management of Nontactical Vehicles in Iraq                        5


      Management Comments on the Finding and Our Response                 16 

      Recommendations, Management Comments, and Our Response              17 


Appendix

      Scope and Methodology                                               20 

             Prior Coverage                                               23 


Management Comments

      U.S. Central Command, Multi-National Force-Iraq, Multi-National 

             Corps-Iraq and Joint Contracting Command-Iraq/Afghanistan    25 

Introduction
Objectives
Our overall audit objective was to determine whether contracting for nontactical vehicles
(NTVs) in support of Operation Iraqi Freedom was effective. Specifically, we audited
contracting processes as well as management of NTVs acquired in support of Operation
Iraqi Freedom. We looked at the justification of need, contract award, and administration
processes for NTV contracts awarded in Iraq in support of Operation Iraqi Freedom. See
the Appendix for a discussion of the scope, methodology, and prior coverage.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

Background
In response to the Act, we collaborated with the Inspectors General of the Department of
State and U.S. Agency for International Development, the Special Inspector General for
Iraq Reconstruction, Auditors General of the U.S. Army Audit Agency and U.S. Air
Force Audit Agency, and the Director of the Defense Contract Audit Agency to develop a
comprehensive audit plan for Southwest Asia. The audit plan includes key issue areas,
such as financial management, systems contracts, and human capital for contract
administration. This plan highlighted ongoing and planned work for each of these
agencies, and identified the purchasing and leasing of vehicles in support of Operation
Iraqi Freedom as our audit issue area.

Roles and Responsibilities
The Department of the Army is the executive agent for contracting for Operation Iraqi
Freedom. The Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
delegated the authority as head of contracting activity to the Commander, Joint
Contracting Command-Iraq/Afghanistan (JCC-I/A). This authority applies to all
contracting activities assigned or attached to U.S. Central Command, with the exception
of the U.S. Army Corps of Engineers.

JCC-I/A provides operational contracting support for the coalition forces and the relief
and reconstruction of Iraq and Afghanistan. This is done through two Principal
Assistants Responsible for Contracting, one for Afghanistan and one for Iraq. JCC-I/A




                                              1

also operates Regional Contracting Centers (RCCs) throughout Iraq and Afghanistan,
which carry out the JCC-I/A mission by supporting the contracting requirements of local
commands.

Multi-National Force-Iraq (MNF-I) is responsible for executing security and military
operations in Iraq. Multi-National Corps-Iraq (MNC-I) and Multi-National Security
Transition Command-Iraq (MNSTC-I) are MNF-I major units. The mission of MNC-I is
to command and control the operations throughout Iraq. Assisting with this mission is
MNC-I C4 Transportation, which is responsible for coordinating with other directorates
and agencies concerning NTV management. MNC-I C4 Transportation is also
responsible for establishing local policies and procedures for NTV use in Iraq as well as
maintaining an up-to-date list of all registered vehicles in Iraq. The mission of MNSTC-I
is to organize, train, equip, and mentor Iraqi Security Forces. Figure 1 below depicts the
command and coordination structure.

                  Figure 1. Command and Coordination Structure




                                            2

Federal and DOD Guidance
DOD guidance defines NTVs as any commercial vehicle or trailer acquired for and
assigned to units based on authorization documents and used for providing
administrative, direct mission, or operational transportation support of military functions.
For purposes of this audit, we considered NTVs to include sedans, trucks, vans, and sport
utility vehicles (armored and unarmored). We excluded buses from our review.

Acquiring NTVs for use in theater requires due diligence in identifying and justifying the
need, documenting decisions for leasing or purchasing, and documenting award
decisions. The Federal Acquisition Regulation (FAR), Defense Federal
Acquisition Regulation Supplement, Army Federal Acquisition Regulation Supplement,
DOD regulations, and Army regulations provide guidance for acquiring NTVs. The
Federal and DOD guidance collectively requires:

        	 contract files to contain sufficient documentation to provide an adequate audit
           trail to document decisions throughout the acquisition process, including
           justifications, approvals, and source selection documentation;
         consideration of leasing versus purchasing (cost benefit to the Government);
         contracting officers and contracting officer’s representatives (CORs) to ensure
           that the goods and services delivered comply with the contract requirements; and
        	 internal policy, guidance, and standard operating procedures developed by heads
           of DoD Components to ensure effective and efficient administration of the
           procurement, operation, maintenance, and use of motor vehicles.

Review of Nontactical Vehicle Contracts
We examined a statistical sample of contract actions from October 1, 2005, through
July 15, 2008, from the Joint Contingency Contracting System. We examined a sample
of 38 contract actions from RCC Balad, 22 contract actions from RCC Tikrit, 74 contract
actions from RCC Victory, and 21 contract actions from MNSTC-I Support Division
(MSD) 1 (see the Appendix). These 155 contract actions totaled $42,740,437 for
           FPFP   PFPF




1,632 NTVs. The types of contract actions in the audit sample included individual
contracts; task orders on indefinite-delivery, indefinite-quantity contracts; and orders
against blanket purchase agreements. Table 1 identifies the number of vehicles, by type,
included in our contract reviews.




1
P Our statistical sample originally included 183 contract actions. However, during the course of our
    P




review, we identified that one contract was awarded prior to October 1, 2005, one contract was terminated,
and four contracts were for vehicles that did not meet our definition of an NTV. In addition, we were
unable to obtain 6 contract files, and we could not verify that the files for 16 contracts from RCC Tikrit
were complete. Therefore, we excluded these 28 contracts from our review. See the Appendix for a more
detailed description of the contracts we reviewed.



                                                    3

              Table 1. Vehicles by Type Included in Our Review of Contract Actions
                       Sedans       Trucks       Vans      SUVs1 P    Armored        Total      Total Value
                                                                      Vehicles
    RCC Balad                 0          135        35         96             0         266    $ 3,633,645
    RCC Tikrit                0           32         6          3             0          41        744,205
    RCC Victory               0           72         7        109             0         188      4,498,030
    MSD2  P                 427          448       142          9          111        1,137     33,864,557
    Total                   427          687       190        217          111        1,632    $42,740,437
1
P   PSport Utility Vehicle (SUV)
2
P   PThe contract actions from RCCs Balad, Tikrit, and Victory were for locally leased NTVs and the MSD
    contracts were for NTVs purchased for Iraqi forces. Therefore, we examined the MSD contract actions
    differently.

In addition to the 1,632 NTVs listed in Table 1, we reviewed NTVs acquired as of
February 2009 through General Services Administration (GSA) leases, GSA purchases,
and other means. In total, we reviewed documentation for 9,793 NTVs costing about
$109.8 million per year for leasing and maintenance.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls to provide reasonable assurance that programs are operating as intended
and evaluate the effectiveness of the controls. MNF-I and MNC-I have implemented
corrective actions to strengthen NTV accountability and approval of requirements.
However, we identified internal control weaknesses for MNF-I, MNC-I and JCC-I/A
related to their management of NTVs. Specifically, MNF-I and MNC-I did not
implement procedures to centrally manage NTV requirements and acquisition, and did
not standardize theater-wide procedures to account for and track NTVs. In addition,
MNF-I, MNC-I, and JCC-I/A did not provide CORs to oversee NTV lease contracts
awarded to local vendors. Implementing all recommendations in the Finding will
strengthen internal controls and should achieve the following benefits:
        	 improve the reliability of information about the NTV population so that
           commanders know how many NTVs they have and can make better decisions
           regarding the size and distribution of their NTV fleet;
        	 reduce NTV costs;
        	 gain efficiencies in the contracting process; and
        	 improve completeness of NTV contract files.
We will provide a copy of the report to the senior official responsible for internal controls
at MNF-I, MNC-I, and JCC-I/A.




                                                      4

Finding. Management of Nontactical Vehicles
in Iraq
MNF-I and MNC-I implemented corrective actions to strengthen controls over NTV
management. However, MNF-I and MNC-I did not have reliable information to
determine the size and distribution of the NTV fleet or to project increases or decreases in
future requirements because:

    	 MNF-I and MNC-I did not have a centralized strategy to manage requirements
       for and acquisition of NTVs,

    	 MNF-I policy did not establish adequate procedures for NTV accountability, and

    	 MNF-I policy on NTV management did not clearly outline roles and 

       responsibilities for agencies and contractors. 


We commend MNF-I and MNC-I for corrective actions. However, decentralized
management has resulted in an investment of about $70 million to purchase GSA NTVs
and of about $109.8 million annually to lease and maintain the entire NTV fleet without
assurance that NTV acquisition is cost-effective. The NTV management issues are
exacerbated by the decrease of forces in Iraq, which has also highlighted the need for
improved accountability and tracking of NTVs. Implementing a centralized NTV
management process should result in more cost-effective acquisition options, increased
efficiencies in the contracting process, improved NTV contract file documentation, and
improved tracking of NTVs in Iraq.

Management of NTVs
The key processes in NTV management include identifying requirements, acquiring
NTVs to meet those requirements, accounting for the NTVs, and tracking the NTVs
throughout their useful life. DOD acquired NTVs in various ways, including leasing
from local vendors and GSA, purchasing from GSA, and other means, such as restoring
abandoned vehicles. Based on data we obtained as of February 2009, approximately
9,793 NTVs were in Iraq. GSA NTVs cost about $70 million to purchase, and the entire
NTV fleet in Iraq will cost about $109.8 million annually to lease and maintain. Table 2
provides a summary of NTVs in Iraq and the cost for each vehicle category.




                                             5

                  Table 2. Total Number NTVs in Iraq and Costs
 Vehicle Category          Number         Purchase Cost        Annual Cost1                          P




                                           (in millions)        (in millions)
Local Leases                2,260         Not applicable            $48.2
                                  2
GSA Leases                  2,104         Not applicable
                                           P                        $29.0
GSA Purchases               3,090              $69.4                $18.6
Other DOD-Owned             2,339            Unknown                $14.0
Total                       9,793              $69.4               $109.8
1
P   Annual cost includes lease, maintenance, and repair.
    P




2
P   The 2,104 GSA-leased NTVs excludes 37 buses because these were outside the scope of our audit.
    P




Once acquired, NTVs should be accounted for and tracked using the theater property
book and unit NTV reports. The theater property book is a tool for recording all
Government-owned equipment in the Iraqi theater, and unit NTV reports outline a unit’s
assigned vehicles and mileage.

Management Actions to Improve NTV Management
In February 2009, we issued a memorandum stating our concerns about NTV
management to the Director, MNF-I CJ 1/4/8. The memorandum highlighted challenges
regarding NTV requirements processes, NTV tracking, and the clear delegation of roles
and responsibilities for NTV management. The Director, MNF-I CJ 1/4/8, responded in
March 2009 by stating that the information provided was right and that he was personally
engaged to ensure immediate improvements were made in all areas. A significant
improvement occurred in May 2009 when MNF-I updated policy on NTV acquisition,
management, and use. The 2009 policy:

          assigns joint responsibility for NTV management to MNF-I directorates, MNC-I
           C4 Transportation, and major subordinate commands;
         requires all MNF-I directorates and major subordinate commands to report NTVs
           to MNC-I C4 Transportation;
        	 requires MNC-I C4 Transportation to maintain a list of all registered vehicles,
           monitor monthly usage, and make recommendations to the MNC-I Chief of Staff
           on the allocation and distribution of the NTV fleet; and
        	 emphasizes the need to properly account for all Government-owned NTVs in the
           theater property book and report all NTVs in monthly NTV reports to MNC-I C4
           Transportation.

Also in March 2009, the Commanding General, MNF-I issued policy that required that
all requests for vehicles be coordinated with MNC-I C4 Transportation and approved by
the MNF-I Chief of Staff. The policy also required that 339 leased NTVs at Victory Base
Complex be turned in immediately.




                                                     6

MNF-I also published policy for units that are requesting NTVs. This policy outlines
specific procedures and information necessary to request an NTV. The policy requires all
NTV requests to be reviewed and approved at the chief of staff level.

Although these policies will improve some aspects of the NTV management process,
additional controls will help ensure that NTVs in Iraq are managed effectively.
Specifically, additional controls will provide MNF-I and MNC-I with more reliable
information to make decisions regarding their NTV fleet, which is critical to effectively
manage the NTV fleet, especially with the planned and ongoing drawdown efforts in
Iraq.

Reliability of NTV Data
MNF-I and MNC-I did not have reliable information to determine the size and
distribution of the NTV fleet. Specific issues we identified included missing, inaccurate,
and duplicate information. The lack of reliable information significantly hinders
command decisions regarding the management of NTVs, specifically in regard to the
drawdown in Iraq.

The theater property book and unit NTV reports should record all purchased and leased
GSA NTVs in Iraq. At the time of our audit, 5,194 GSA NTVs were in Iraq; however,
3,854 (or about 74 percent) were not accounted for in both the theater property book and
unit NTV reports. In addition, 531 GSA NTVs were not accounted for on either the
theater property book or a unit NTV report. Figure 2 shows whether GSA-purchased and
GSA-leased NTVs were properly recorded in the theater property book or unit NTV
reports.




                                             7

                  Figure 2. Accountability of GSA-Purchased and 

                                GSA-Leased NTVs





There were 251 GSA-purchased NTVs and 280 GSA-leased NTVs that were not
recorded in either the theater property book or the unit NTV reports. We concluded that
the 531 NTVs not accounted for cost $11.4 million to acquire and $5.3 million in each
subsequent year for leasing fees, maintenance, and repair.

We also concluded that the theater property book and unit NTV reports contained
inaccurate NTV information. According to 49 Code of Federal Regulations
sec. 565.4 (2005), each vehicle must have a 17-character vehicle identification number
assigned by the manufacturer. However, we determined that the NTV data for 425 NTVs
included vehicle identification numbers that were either shorter or longer than
17 characters. We also identified 3,464 GSA vehicles that were not properly classified as
GSA vehicles or they were not classified as GSA-purchased, GSA-leased, Government-
owned, or locally leased.




                                            8

In addition to the missing and inaccurate information, we also concluded that theater
property book and unit NTV reports contained duplicate NTV records. Our analysis of
NTV data revealed that the theater property book contained 689 duplicate NTV records
and the unit NTV reports contained 837 duplicate NTV records. These 1,526 NTVs that
were recorded multiple times in the theater property book and unit NTV reports may have
contributed to an overstated number of NTVs in Iraq.

We concluded that MNF-I officials may have overstated the number of vehicles in the
NTV fleet. At the time of our audit, MNF-I officials stated that there were more than
18,000 NTVs in Iraq, but we calculated only 9,793 NTVs. Figure 2 illustrates how
counting each individual vehicle identification number rather than taking into account
NTVs that were recorded in both the theater property book and unit NTV reports adds up
to 17,583 NTVs.

The data issues we identified significantly impacted the reliability of NTV data, and will
impair the ability of MNC-I C4 Transportation to maintain an accurate list of all
registered NTVs, monitor monthly usage, or make efficient and effective
recommendations regarding the allocation of the NTV fleet. The ongoing efforts to
reduce the U.S. presence in Iraq compound this issue. Without accurate records on the
number of NTVs in theater, commands cannot make decisions on the allocation and
distribution of the NTV fleet.

Policy for NTV Management
MNF-I and MNC-I did not have reliable information about the NTV fleet because MNF-I
and MNC-I did not have a strategy to centrally manage NTV requirements and
acquisition. In addition, NTV management policy did not effectively establish
procedures for the accountability of NTVs and did not specifically outline NTV
management responsibilities for agencies and contractors.

Centralizing NTV Management
MNF-I and MNC-I did not have a centralized strategy to manage NTV requirements and
acquire NTVs to fill those requirements. Tracking and oversight of NTVs is critical to
projecting increases and decreases in requirements, and efficiently managing resources to
meet those requirements. DOD Instruction 5000.02, “Operation of the Defense
Acquisition System,” December 8, 2008, states that Service acquisitions exceeding
$10 million but less than $250 million require a program manager to use a strategic,
enterprise-wide approach to plan and execute acquisitions. Annual NTV lease and
maintenance costs total about $109.8 million per year, which exceed the threshold
identified in DOD Instruction 5000.2. Instead of strategically managing NTV
requirements, MNF-I and MNC-I relied on independent, decentralized processes to
identify and approve NTV requirements.

MNF-I did not have oversight of the number of locally leased vehicles because the NTV
policy did not facilitate centralized NTV management processes. Units funded by
MNC-I submitted individual requests to the local RCC through the Joint Facilities
Acquisition Review Board (The Board) to lease NTVs. The Board reviewed NTV


                                             9

requirements, justification, and funding documents, and issued an approval or
disapproval. Units not funded by MNC-I submitted requests to the RCCs using a
Military Interdepartmental Purchase Request that was not subject to The Board’s review.
The 2009 MNF-I policy on NTV management improved controls by requiring MNF-I or
MNC-I Chiefs of Staff to approve locally leased NTVs. While these procedures may
reduce the number of local leases, they do not facilitate a strategic enterprise-wide
approach to planning for and managing NTV requirements.

NTV Accountability Policy and Procedures
MNF-I policy on NTVs did not effectively establish procedures for NTV accountability.
Based on the 2009 MNF-I policy, accountability is achieved through registering NTVs,
recording them in the theater property book, and reporting them in monthly NTV reports.
The 2009 policy introduced requirements for vehicle registration, stating that each NTV
manager 2 is responsible for setting up registration and dispatch procedures within their
              FPFP   PFPF




organization. The policy also stated that vehicles must be registered to obtain fuel
privileges and that MNC-I C4 Transportation should maintain a current list of all
registered vehicles in Iraq. While the added controls should result in registration of all
NTVs, the NTV policy could improve accountability by linking registration procedures to
recording NTVs in the theater property book and reporting them in monthly NTV reports.

Registration and dispatch are opportunities for NTV managers to verify that all
Government-owned NTVs are properly recorded in the theater property book. We
identified 1,150 NTVs 3 that were reported in unit NTV reports but not recorded in the
                              FPFP   PFPF




theater property book. Because the 2009 MNF-I policy requires vehicle registration to be
linked to fuel privileges, NTV operators have an incentive to register their vehicles.
Therefore, linking the NTV registration and dispatch processes to property book
accountability could ensure more accurate theater property book records and more
accurate information reported to MNC-I C4 Transportation.

NTV managers can also collect vehicle usage data for monthly NTV reports through the
registration and dispatch processes. However, the format for monthly reporting requires
only ending mileage to be reported. In order to calculate the usage rates for each time
period, identify underused vehicles, and make effective allocation decisions; NTV
managers must have the beginning and ending mileage for each NTV reported. Forty-five
percent of the vehicles recorded on NTV reports we obtained did not include mileage,
and the other vehicles recorded on NTV reports only reported ending mileage for that
period, which was not sufficient to determine NTV usage or to make reallocation
decisions. Recording the beginning and ending mileage will give MNC-I C4

2
P   P The 2009 MNF-I policy uses the terms NTV manager and transportation coordinator interchangeably
    throughout the policy. We will use the term NTV manager throughout the report when referring to the NTV
    manager or transportation coordinator.
3
P   P Of these 1,150 vehicles, 82 were GSA vehicles, which are required to be recorded in the theater property
    book. We were unable to determine whether the other 1,068 vehicles were Government-owned or locally
    leased because JCC-I/A did not report vehicle identification numbers in the local lease inventory they
    provided. Local leases are not required to be recorded in the theater property book.


                                                        10

Transportation and NTV managers the information needed to calculate a usage rate,
which will allow them to monitor use and make effective reallocation decisions. MNF-I
should revise the format for monthly reporting to include beginning mileage.
We commend MNF-I for implementing corrective actions to update NTV policy to
improve accountability of NTVs. However, the 2009 policy does not provide assurance
that all NTVs are fully accounted for and reported in a way that provides decisionmakers
with accurate and relevant information about the NTV fleet. By directly linking the NTV
registration process with property book accountability and monthly NTV reporting,
MNF-I can improve the controls over data reliability. This will establish more effective
NTV accountability, which is needed as the decrease of U.S. forces in Iraq continues.

Roles and Responsibilities
MNF-I policy did not clearly assign roles and responsibilities for NTV management.
The 2009 policy requires agencies and contractors to comply with registration and
reporting guidance outlined in the policy. However, the policy does not designate
responsibilities for registration or reporting vehicles used by agencies and contractors.
Specifically, the policy does not outline to whom agencies and contractors should report
vehicles. To ensure the most accurate data on the number of NTVs in Iraq, MNF-I
should revise the 2009 policy to clearly identify NTV management responsibilities for
agency and contractor NTVs.

When evaluated from a strategic level, the current NTV management program has
independent processes in place that, if linked together, could enhance the management of
NTVs in support of Operation Iraqi Freedom. Appointing an NTV program manager in
accordance with DOD Directive 5000.2 to lead the implementation of a centralized
approach to NTV management is the first step in improving NTV management. Also,
linking the NTV registration and dispatch processes to recording vehicles in the theater
property book and unit NTV reports will improve the accuracy of NTV data. The NTV
program manager could then rely on the NTV data to determine an annual baseline
number of NTVs and the length of the requirements, project increases or decreases in
future requirements, and centralize the acquisition of NTVs to meet those requirements.
In addition, with centralized, consolidated data; the NTV program manager, MNC-I C4
Transportation, and the NTV managers could make better allocation and reallocation
decisions based on NTV usage rates, mission priority, and decrease of U.S. forces plans.

Benefits of Centrally Managing the NTV Program
MNF-I and MNC-I had no assurance that NTV acquisition methods were cost-effective
because they relied on decentralized processes. Almost $70 million was invested to
purchase GSA NTVs, and the entire NTV fleet in Iraq may cost approximately
$109.8 million annually to lease and maintain. Implementing a centralized NTV
management process can help identify the most cost-effective acquisition options,
increase efficiencies in the contracting process, and improve NTV contract file
documentation.




                                            11

Acquisition Options with Centralized NTV Management
Centralizing the NTV management process can help ensure that NTV acquisition is cost-
effective. Strategically identifying NTV requirements and considering all acquisition
options to fill those requirements will help ensure that the most cost-effective acquisition
options are used to acquire NTVs.

Whether NTVs are purchased or leased from GSA or leased from a local vendor, each
acquisition option has cost benefits, depending on the length of the requirement. Figure 3
shows the average estimated costs for GSA-leased, locally leased, and GSA-purchased
NTVs, depending on the length of the NTV requirements.

                          Figure 3. Average Cost of NTVs Over Time Using
                                 Different Acquisition Approaches*




* We calculated average costs, including maintenance expenses, for each acquisition approach based on fleet composition. See the
Costs of Different NTV Acquisition Approaches section of the Appendix for more details about these calculations.


As Figure 3 illustrates, leasing from GSA or local vendors is the most cost-effective
acquisition approaches for NTVs required for 17 months or less, while purchasing GSA
vehicles is more cost-effective than local leasing for requirements greater than
17 months. Local leasing becomes the most expensive acquisition option for
requirements that extend beyond 17 months. The FAR states that purchasing is
appropriate if the equipment will be used beyond the point in time when cumulative
leasing costs exceed the purchase costs.




                                                                12

We determined from the contracts we reviewed that locally leasing NTVs was not always
cost-effective for acquiring NTVs in support of Operation Iraqi Freedom. The FAR
requires agencies to consider whether to lease or purchase equipment by comparing costs
and other factors, such as the estimated time the equipment is to be used. Most local
leases we reviewed did not have initial lease terms greater than 12 months because the
contracts were funded with Operations and Maintenance appropriations, which expire
after 12 months. Individually, these 12-month leases appeared to be a cost-effective
acquisition option. However, of the 134 contracts 4 we reviewed, 35 percent included
                                                                 FPFP   FP
                                                                        P F




lease renewals, either through new contract actions or extensions to existing leases.
Table 3 summarizes vehicle lease renewals from the contract actions we reviewed.

                          Table 3. Total Lease Term for Renewed Vehicle 

                                          Lease Contracts 

                   Total Lease Term (in months, 
      Number of Vehicles With 

                        including renewals)
                This Lease Term 

                                6-12                                 
42

                               13-17                               
36

                               18-29                                
46

                             30 or more 
                          34 

                   Total Vehicle Lease Renewals                   158 


The significant number of NTV lease renewals that exceeded 12 months demonstrates
that there are longer term NTV requirements that could be managed more cost-effectively
using a centralized approach. Approximately 51 percent of the vehicle lease renewals we
reviewed were locally leased for 18 months or more. As previously stated, local leases
are the most expensive acquisition option beyond 17 months. By not considering the
length of requirements when determining the best acquisition option, MNF-I has no
assurance that local leasing is cost-effective.

Efficiencies in the Contracting Process
Using a centralized approach to identify NTV requirements and acquire NTVs to meet
those requirements should result in reduced workload for contracting officers. While
MNC-I C4 Transportation coordinates with GSA to obtain GSA NTVs, contracting
officers at RCCs throughout Iraq contract with vendors to obtain local leases for
individual units on an as-needed basis, often acquiring locally leased NTVs in small
numbers throughout the year. Table 4 illustrates how often contracting officers at RCCs
Balad, Tikrit, and Victory leased NTVs, based on the contracts we reviewed.




4
P   P   These 134 contracts from RCCs Balad, Tikrit, and Victory were to lease 495 vehicles.


                                                         13

                       Table 4. Quantity of NTVs Leased
Number of NTVs Leased per Contract     Number of Contracts With This Quantity
                 1                                      73
                2-5                                     43
               6-10                                     11
              11-20                                      4
            21 or more                                   3

This decentralized acquisition approach was inefficient compared to MSD, a contracting
center that procured NTVs for the Iraq Security Forces based on centralized
requirements. MNSTC-I coordinated with coalition training teams and the Iraqis to
develop Mission Tables of Organization and Equipment, which included NTV
requirements. MSD then acquired larger quantities of NTVs on one contract rather than
awarding multiple contracts for small quantities of NTVs throughout the year. From the
contracts we reviewed, the contracts awarded by MSD acquired an average of 54 NTVs
per contract, and up to 359 NTVs on one contract, while RCCs acquired an average of
between 3 and 4 NTVs per contract. Centralizing requirements for and acquisition of
NTVs can help increase efficiencies in contract documentation and administration.

NTV Contract Documentation and Administration
Centralizing the NTV acquisition process may also help decrease the deficiencies we
identified in contract file documentation related to NTV justification, contract award, and
administration. These deficiencies were evident at the RCCs that implemented
decentralized NTV acquisition practices.

FAR Subpart 4.8, “Government Contract Files,” provides guidance on contract file
documentation, stating that contract files normally include documentation related to pre-
solicitation, including justifications and approvals, and award, including a list of sources
solicited, the solicitation, and a copy of each offer or quotation received. In addition, the
Defense Federal Acquisition Regulation Supplement 201.602-2, “Responsibilities,” and
its corresponding Procedures, Guidance, and Instructions outline procedures for
documenting the appointment of contracting officer’s representatives (CORs).

We reviewed 134 NTV contract files from RCCs Balad, Tikrit, and Victory and
concluded that contract files did not have sufficient required documentation.
Specifically:

      85 percent did not contain any acceptance documentation to show whether
       vehicles complied with contract requirements,
      79 percent did not contain documentation to show that a COR was appointed to
       administer and oversee the contract,




                                             14

      54 percent did not contain sufficient documentation to determine why the contract
       was awarded to the selected contractor, and
      57 percent did not contain documentation to show justification for the requested
       NTVs or the justification did not contain details regarding the planned use of the
       requested NTVs.

These documentation issues were more prevalent at the RCCs than documentation issues
identified at MSD. MSD awarded fewer contracts and had fewer contract documentation
issues than the RCCs. Of the 21 contracts awarded by MSD that we reviewed, only 1 did
not contain adequate justification and approval for the NTVs, and only 2 did not contain
acceptance documentation for all of the vehicles.

Although implementing a centralized requirements process should improve contract file
documentation, these actions will not ensure that contracting officers assign CORs to
monitor NTV lease contracts. A key function of a COR is to accept vehicles and ensure
they comply with contract terms and requirements. As previously discussed, we
identified that approximately 79 percent of the contracts we reviewed did not have
documentation to show that a COR was appointed to administer the contract. Contracting
personnel at RCC Victory stated that it was unreasonable to assign CORs to monitor local
lease contracts because the limited personnel had more complex service contracts to
monitor. We calculated that local NTV leases may cost approximately $48.2 million per
year, which highlights the fact that DOD may be spending millions of dollars annually
accepting services without assurance that the services meet the terms of the contracts.

Appointing NTV managers as CORs should improve contract administration of local
NTVs leases. The 2009 NTV policy states that NTV managers are responsible for
vehicle registration and dispatch and that local NTV leases should be reported on unit
NTV reports. Registration and dispatch provide an opportunity for NTV managers to
inspect vehicles, verify that they are being properly maintained, and collect data for NTV
reports. Therefore, NTV managers could perform COR duties, such as vehicle
acceptance, for locally leased NTVs. This may also allow unit personnel to monitor other
service contracts that they determine to need more oversight than NTV leases.

Conclusion
While MNF-I and MNC-I implemented corrective actions to improve controls over
NTVs in Iraq, this report highlights opportunities for improvements in the management
of NTV to support Operation Iraqi Freedom. As DOD efforts to relocate thousands of
personnel and billions of dollars worth of equipment continue, it is critical that
commanders have oversight of NTVs to ensure they are properly accounted for and
managed. However, if current NTV management policy and procedures remain
unchanged, MNF-I and MNC-I will continue to spend millions of dollars annually to
acquire NTVs without assurance that NTVs are acquired using the most cost-effective
acquisition options, and efficiencies during the decrease of U.S. forces could also be
impacted.




                                           15

Developing and implementing a centralized NTV program will improve the management
of NTVs in Iraq. The first step is to appoint an NTV program manager to identify and
manage NTV requirements and acquisition. Second, NTV registration processes should
be linked to recording data in the theater property book and unit NTV reports, which will
improve the accuracy of NTV data. This step is critical in the success of a centralized
program for NTV management. If data on NTVs are inaccurate, the benefits of
centralization cannot be realized because NTV managers cannot make effective decisions
regarding the size and distribution of the NTV fleet. Third, from the NTV data, the NTV
program manager can establish an annual baseline of NTV requirements and explore all
acquisition options to obtain NTVs to meet those requirements. Implementing
centralized NTV management will increase assurance in the cost-effectiveness of
acquisition methods, efficiency at RCCs, and completeness of NTV contract files.

Management Comments on the Finding and Our
Response
The Chief of Staff, U.S. Central Command (CENTCOM), provided a consolidated
response for CENTCOM, MNF-I, MNC-I, and JCC-I/A. MNF-I and MNC-I have
published guidance and procedures to register vehicles, terminate vehicle leases, and
report monthly NTV inventories throughout Iraq, and have established NTV turn-in
procedures as part of the responsible drawdown. The Chief of Staff stated that these
actions will continue as MNF-I, MNC-I, and MNSTC-I combine to become United States
Forces Iraq.

JCC-I/A provided general comments on the report and agreed that:

      centralizing management of NTVs will result in fewer contracting actions,
       improved contract file documentation, and cost savings;
      contracting officers should complete a lease-versus-purchase analysis on all
       vehicle requirements;
      contract files should contain documentation showing compliance with the contract
       terms and conditions;
      all contracts for leased vehicles should have a COR; and
      contract files should contain information supporting the award decision.

JCC-I/A stated that RCCs were not in the position to comment on the reasonableness of
appointing CORs to monitor local lease contracts because the RCC is not privy to the unit
workload. JCC-I/A agreed that CORs should be appointed but stated that COR
resourcing is the responsibility of units and that the RCC should not comment on this
point.

Our Response
We appreciate the consolidated response from CENTCOM. United States Forces Iraq
compliance with current guidance and procedures should continue mitigating risk areas.
In addition, we acknowledge that the RCCs do not provide CORs; however, the Defense
Federal Acquisition Regulation Supplement Procedures, Guidance, and Instructions


                                           16

requires contracting officers to appoint CORs prior to the beginning of contract
performance. The contracting officers at the RCCs have a responsibility to appoint CORs
and, therefore, are in the position to comment on the units appointing CORs for NTV
lease contracts.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that Commander, Multi-National Force-Iraq revise and
implement policy on nontactical vehicle management to:

      a.   Appoint a Nontactical Vehicle Program Manager with the authority to
implement theater-wide nontactical vehicle policy to:

              (1) Identify annual nontactical vehicle requirements, including the
expected length of requirements, and evaluate all nontactical vehicle acquisition
options, including internal reallocation of nontactical vehicles, to meet the
requirements.

              (2) Implement procedures to strategically plan for and execute
nontactical vehicle acquisitions to ensure the most cost-effective acquisition
approach is used based on the length of the requirement and to minimize the
number of contract actions.

      b. Clearly identify the responsibilities and procedures for agencies and
contractors to register nontactical vehicles.

       c.    Implement a standardized procedure for nontactical vehicle
registration, including those used by other agencies and contractors that is linked to
maintaining the theater property book and collecting information for monthly
nontactical vehicle reports.

        d. Implement controls to accurately record vehicle identification numbers
and classify nontactical vehicles (for example, General Services Administration
lease, contractor vehicle, or local lease).

      e.   Revise the format for unit nontactical vehicle reports to include
beginning mileage.

Multi-National Force-Iraq Comments
The Chief of Staff, CENTCOM, provided a consolidated response for CENTCOM,
MNF-I, MNC-I, and JCC-I/A. MNF-I agreed and stated that MNF-I has appointed an
NTV Program Manager and published policy in May 2009 on the acquisition,
management, and use of NTVs. MNF-I stated that it will adjust the MNF-I NTV policy
further, based on our findings.




                                          17

Our Response
MNF-I comments are fully responsive, and the actions meet the intent of the
recommendations. We plan to follow up in 6 months to determine whether the policy
was updated accordingly. No further comments are required.

Multi-National Corps-Iraq Comments
Although not required to comment, the Chief of Staff, CENTCOM, provided a
consolidated response, which included comments from MNC-I. CENTCOM and MNC-I
agreed and stated that NTVs are centralized within the MNC-I C4 Transportation section.
MNC-I also stated that it published policy in August 2009 that directs all NTV requests
to be coordinated through the C4 Transportation NTV manager. The policy requires:

      100 percent accountability of all NTVs,
      NTV managers at each geographic location, and
      NTVs that are not leased locally or from GSA to be recorded on unit theater
       property books.

MNC-I also stated that the MNC-I C4 Transportation NTV standard operating procedure
directs unit NTV reports to include beginning mileage.

Our Response
We appreciate the comments from MNC-I. We acknowledge that the MNC-I C4
Transportation standard operating procedure now requires units to report beginning
mileage; however, as our report states, NTV managers need beginning and ending
mileage to calculate the usage rates for each time period and identify underused vehicles.
Requiring beginning and ending mileage on unit NTV reports will help NTV managers
and CORs determine monthly usage and will aid in reallocating NTV resources as
necessary.

A.2. We recommend that the Commander, Joint Contracting Command-
Iraq/Afghanistan direct contracting officers at regional contracting centers to
appoint nontactical vehicle managers to act as contracting officer’s representatives
for local nontactical vehicle lease contracts.

Joint Contracting Command-Iraq/Afghanistan Comments
The Chief of Staff, CENTCOM, provided a consolidated response for CENTCOM,
MNF-I, MNC-I, and JCC-I/A. JCC-I/A agreed and will coordinate with MNF-I to
appoint NTV managers as CORs for NTVs lease contracts.

Multi-National Force-Iraq Comments
Although not required to comment, the Chief of Staff, CENTCOM, provided a
consolidated response, which included comments from MNF-I. MNF-I agreed and stated
that MNF-I will coordinate with JCC-I/A to appoint NTV managers as CORs for lease
contracts for nontactical vehicles.



                                            18

Our Response
JCC-I/A comments are responsive, and the action meets the intent of the
recommendation. No further comments are required. We acknowledge the comments
from MNF-I and agree that collaboration with JCC-I/A will help ensure that contracting
officers appoint CORs for NTV lease contracts.




                                          19

Appendix. Scope and Methodology
T




We conducted this performance audit from June 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

    Our audit scope encompasses NTV contract actions from October 1, 2005, through
    July 15, 2008. We limited our scope to contracts awarded at RCCs Balad, Tikrit,
    Victory, and MSD. We reviewed official contract files for documentation of justification
    of need or requirement; lease-versus-purchase analysis; contract award; COR
    appointment; and vehicle acceptance, compliance, and use. We also reviewed the
    effectiveness of NTV requirements generation, accountability, cost, and long-term
    management and acquisition strategy. We reviewed the FAR as well as published
    guidance from DOD, Joint Contracting Command-Iraq/Afghanistan, and MNF-I. We
    interviewed personnel from the following organizations:

          Under Secretary of Defense for Acquisition, Technology, and Logistics,
                   Defense Procurement, Acquisition Policy, and Strategic Sourcing;
          U.S. Central Command;
          Multi-National Force-Iraq Chief of Staff;
          Multi-National Force-Iraq CJ1/4/8;
          Multi-National Corps-Iraq Chief of Staff;
          Multi-National Corps-Iraq C4;
          Multi-National Corps-Iraq C8;
          Multi-National Security Transition Command- Iraq: Headquarters Commandant;
          Multi-National Security Transition Command- Iraq: J4;
          Multi-National Security Transition Command- Iraq Support Division;
          Joint Contracting Command-Iraq/Afghanistan;
          Principle Assistant Responsible for Contracting-Iraq;
          Multi National Division-North;
          Joint Base Balad: Installations Deputy Commander;
          Joint Base Balad: NTV COR;
          Joint Base Balad: Provost Marshal’s Office, Vehicle Registration Office;
          Joint Base Balad: Air Force Temporary Motor Pool;
          Regional Contracting Center-Balad;
          Regional Contracting Center-Tikrit;
          Regional Contracting Center-Victory;
          Coalition Operating Base Speicher Provost Marshal’s Office;
          Defense Contract Management Agency; and
          General Services Administration.




                                               20

Use of Computer-Processed Data
We relied on five sets of computer-processed data for this audit. The data were provided
by MNC-I C4 Transportation, JCC-I/A, and GSA. We significantly relied on the
completeness of these data sources and the accuracy of associated NTV vehicle
identification numbers, costs, and vehicle acquisition types to determine:

      the population of each NTV type, to include GSA purchases, GSA leases, local
       leases, and other Government-owned NTVs;
      the cost of each NTV type; and
      whether GSA NTVs were properly accounted for in the theater property book and
       unit NTV reports.

We tested the data for reliability. Our level of confidence that the data is reliable is
discussed in the following paragraphs.

Joint Contingency Contracting System
We used computer-processed data from the Joint Contingency Contracting System to
develop a statistical sample of NTV contracts from locations in Iraq. We reviewed
contract actions from this sample to assess the effectiveness of various aspects of NTV
contracting. We did not significantly rely on this data because we did not project our
audit results. See the Use of Technical Assistance for additional information about the
statistical sample.

GSA Inventory Lists, Invoices, and Shipping Documents
We significantly relied on GSA inventory lists, invoices, and shipping documents
obtained from MNC-I C4 Transportation and GSA to determine the size and cost of the
GSA NTV fleet in Iraq. We have confidence that the data were reliable, based on our use
of it.

Theater-Wide Property Book and Unit NTV Reports
We are not confident the theater property book and unit NTV reports provided by MNC-I
C4 Transportation are reliable based on our use of them. Specifically, the theater
property book and unit NTV reports we obtained were incomplete and we identified
duplicate and invalid vehicle entries in the data sources. We are not confident in the
reliability of the theater property book and unit NTV report data; therefore, the number of
Government-owned NTVs that we determined based on this data may not be accurate.
Our concerns over discrepancies within the theater property book and the unit NTV
reports are presented as part of the Finding in this report.

JCC-I/A Inventory of Locally Leased NTVs
According to JCC-I/A data, there were approximately 2,260 locally leased vehicles in
Iraq. The data we reviewed did not contain vehicle identification numbers so we were
unable to determine whether local leases were accounted for in the theater property book
and unit NTV reports; therefore, we were unable to assess the data’s reliability.

                                              21

We determined that the JCC-I/A local lease data were reasonable by performing a test on
NTV contracts found in the Joint Contingency Contracting System over a 1-year period.
Using composite cost techniques, we determined that the 1-year period of NTV contracts
in the Joint Contingency Contracting System included approximately 2,116 vehicles,
compared to the 2,260 vehicles reported by JCC-I/A. Because of the small 6.4 percent
difference in value, we believe the test indicates that the JCC-I/A local lease data are
reasonable. However, information in the report pertaining to the number of locally leased
vehicles may not be accurate because we could not determine its reliability.

NTV Maintenance Costs
The 2007 MNF-I operational needs statement for NTVs in support of Operation Iraqi
Freedom obtained from MNC-I C4 Transportation estimates NTV maintenance costs. We
conducted limited testing and, although these costs appear reasonable, we were unable to
determine whether they were reliable. As a result, information pertaining to NTV costs
over time and yearly NTV costs, which included maintenance costs, may not be accurate.

Costs of Different NTV Acquisition Approaches
In the Finding, we presented the 4-year cost of acquiring NTVs through GSA lease, GSA
purchase, or local lease. Because different types of vehicles have different costs, we
calculated the cost of an “average” NTV for each acquisition type so that they could be
compared to each other. For example, we calculated the cost of an “average” GSA lease
by adding the total invoiced leasing fees and estimated maintenance costs for all GSA
leased NTVs and then dividing this cost by the number of GSA-leased NTVs. We
performed a similar calculation for GSA-purchased NTVs; however, we were unable to
perform this calculation for locally leased NTVs because we did not have lease cost data
for all 2,260 locally leased NTVs.

For local NTV leases, we calculated the approximate cost of an “average” locally leased
NTV using composite costing. Because GSA NTVs were intended to replace some local
leases, we assumed that the locally leased NTV fleet would be composed of the same
types of NTVs as the GSA fleet. For example, if 28 percent of the GSA fleet was
comprised of medium-sized sport utility vehicles, we assumed that 28 percent of the
locally leased NTV fleet included medium-sized sport utility vehicles. After determining
local NTV fleet composition, we calculated the composite cost for an “average” local
NTV lease in two steps.

Based on the NTV contracts we reviewed, we multiplied the average local lease cost for
an NTV type by the percentage that the NTV type occurred in the fleet. For example, if
the NTV contracts we reviewed showed that medium-sized sport utility vehicles cost an
average of $1,800 per month to lease and maintain, we multiplied $1,800 by the
percentage of fleet composition (in this example, 28 percent as stated above) to obtain
$504 as the composite cost element for medium-sized sport utility vehicles.




                                           22

We then added the composite cost elements for each vehicle type to obtain the final
composite cost for an “average” locally leased NTV. Based on the data we obtained, we
calculated that the composite cost of an “average” locally leased NTV was $1,778.64 per
month.

Use of Technical Assistance
The Quantitative Methods and Analysis Division developed the statistical sample of NTV
contracts awarded in Iraq and used a stratified sample design to ensure that RCCs Balad,
Tikrit, Victory, and MSD were appropriately represented in the sample. The table shows
the scope of Iraq NTV contracts.

                             Table. Scope of NTV Contracts Reviewed for Iraq
                     Subpopulation                                  Sample                   Audited Sample
           RCC        Contract      Value1    P           Contract       Value1 P         Contract     Value2P




                       Actions                            Actions                         Actions
      Balad                142   $14,029,685

                                       
                      40         4,661,707
                                                                            
                 
38     $3,633,645
                                                                                                         
             

      Tikrit               153     14,905,033
                                       
                        
40      3,406,070
                                                                            
                    
22     
744,205      

      Victory              330     21,366,799
                                       
                       
80       4,207,500
                                                                            
                   
74    4,498,030
                                                                                                         
             

      MSD 
                 23     38,339,396
                                       
                      
23       38,339,396
                                                                            
                  
21    33,864,557
                                                                                                         
             

      Total                648   $88,640,913

                                     
                       183       $50,614,673

                                                                          
                  155     $42,740,437

                                                                                                       

1
P     P   Dollar value according to the Joint Contingency Contracting System.
2
P     P   Dollar value based on official contract files.

For RCC Balad, our contract sample originally included 40 contracts, but we were unable
to obtain 1 contract, and 1 contract was awarded prior to our review time frame. For
RCC Tikrit, our contract sample originally included 40 contracts but 2 were for buses,
which did not meet our definition of an NTV. In addition, contracting personnel stated
that 16 contracts had been placed in storage. Because we could not determine whether all
documentation pertaining to these contracts was available, we did not include these
16 contracts in our review. For RCC Victory, our contract sample originally included
80 contracts, but we were unable to obtain 5 contracts, and 1 contract was for buses,
which did not meet our definition of an NTV. For MSD, our contract sample originally
included 23 contracts, but 1 contract was terminated, and 1 contract was for fuel trucks,
which did not meet our definition of an NTV.

Prior Coverage
During the last 5 years, DOD Inspector General (IG), Army Audit Agency, and Air Force
Audit Agency have issued five reports addressing issues related to NTV contracting
processes and tracking in Southwest Asia. Unrestricted DOD IG reports can be accessed
at http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports can be
           HTU                                      UHT




accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.
                                                                                    HTU                          UTH




Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
HTU                                                                                              UTH




Common Access Cards who create user accounts.


                                                              23

DOD IG
DOD IG Report No. D-2009-095, “Contracting for Transportation Services for U.S.
Army Corps of Engineers, Gulf Region Division,” July 29, 2009

DOD IG Report No. D-2009-085, “Contracting for Nontactical Vehicles in Support of
Operation Enduring Freedom,” June 8, 2009

DOD IG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan,” October 31, 2008

Army
Army Audit Agency Report A2007-0011-ALL, “Audit of Nontactical Vehicle Usage in
the Iraq Area of Operations, Audit of Logistics Civil Augmentation Program Operations
in Support of Operation Iraqi Freedom,” November 16, 2006
                                     T




Air Force
Air Force Audit Agency Report F2007-0004-FC4000, “Deployed Assets,”
January 26, 2007




                                          24

U.S. Central Command, Multi-National Force-Iraq, Multi-
National Corps-Iraq, and Joint Contracting Command-Iraq/
Afghanistan Comments



                              UNITED STATES CENTRAL COMMAND
                                    OFFICE OF THE CHIEF OF STAFF
                                 7115 SOUTH HOUN UAK.Y HOULEVA RU
                              MACUILL All{ FORCE HASE, FLUI{II)A 33621-5 1Ul



                                                                               28 October 2009

      FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: United States Central Command Response to Draft DODIG Report,
               "Management of Non-tactical Vehicles in Support of Operation lraqi
               Freedom" (Project No. D2008 -DOOOLH-023S.000)

      t. Thank you for the opportunity to respond to the recommendations presented in the
      draft report.

      2. USCENTCOM , MNF-I, MNC-I and ICC VA concur with the report and comments
      are attached.

      3. The Point of Contact is                              , USCENTCOM Inspector
      General,                I.




                                              2/J~~
                                   Click to add JPEG file
                                                   Major General, U.S. Army

      Ene!:
      Tab A: CENTCOM Consolidated Response
                                  DODIG Draft Report
       Contracting for Non-Tactical Vehicles in Support of Operation Iraqi Freedom
                         (Report No. D2008.DOOOLH·0235.000)



                                    CENTCOM Comments
                                   To The Recommendations

RECOMMEl\DATION A.!, (page \6. DODIG Draft Report)

DODIG recommends that Commander, Multi-National Force-Iraq revise and implement policy
on nontactical vehicle management to:

a. Appoint a Nontactical Vehicle Program Manager 'With the authority to implement theater-wide
nontactical vehicle policy to:

       (1) Identify annual nontactical vchicle requirements, including the expected length of
       requirements, and evaluate all nontactical vehicle acquisition options, including intcmal
       reallocation of nontactical vehicles, to meet the requirements.

       (2) Implement procedures to strategically plan for and execute nontaetieal vehicle
       acquisitions to ensure the most cost-effective· acquisition approach is used based on the
                               Click to add JPEG file
       length of the requirement and to minimize the number of c·ontraet actions.

b. Clearly identify the responsibilities and procedures for agencies and contractors to register
nontactical vehicles.

c. Implement a standardized procedure for nontaetieal vehicle registration, including those used
by other agencies and contractors, which are linked to maintaining the theater property book and
collecting intormation tor monthly nontactical vehicle reports.

d. Implement controls to accurately record vehicle identification numbers and classify
nontacticul vehicles (for example, General Services Administration lease, contractor vehicle, or
local lease).

e. Revise the format for unit nontactical vehicle reports to include beginning mileage.

MNF- l RF.SPONSE: MNF-I has appointed a Non-tactical Vehicle (NTV) Program Manager
and published an NTV policy for Iraq on 28 May 2009. Additionally, based on the findings in
the DODIG repon, MNF-I will adjust the MNF-I l\TV policy accordingly.

MNC-J RESPONSE:
a. Concur. MNF-I published a memorandum (Policy on Acquisition, Management and Use of
'lTV) on 28 May 09 and MNC·[ published MNC-\ FRAGO 0155 on 18 Aug 09. NTVs ru-e
ct:lltrali£l!li within the MNC-I C4 Transportation section. MNC-I FRAGO 0155 directs all NTV
requests be vetted through the C4 Transportation NTV manager.




                                                               26
b. Concur. MNF-J published a memorandum (Policy on Acquisition, Management and Use of
NTV) on 28 May 09.

c. Con(.;ur. MNC-I FRAGO 0155, datt:d 18 Aug 09 directs 100% accounlability ofNTVs, directs
NTV managers at each geographical location, and ensures NTV that arc not leased and GSA
leased be placed on unit TPE propcrty books.

d. Concur. Same as c.

e. Concur. MNC-I C4 NTV SOP direcls this already.

RECOMMENDATION A.2. Ipage 16. DODIG Draft Report)

DODIG recommends that the Commander, Ioint Contracting Command-Iraq/Afghanistan direct
contracting omcers at regional contracting centers to appoint nontactical vehicle managers to act
as contracting officer's representatives for local nontactical vehicle lease contracts.

MNF-I RESPONSE: MNF-I concurs w ith recommendation, and will coordinate with ICC 1/A
to appoint NTV managers as contracting officer representatives for non-tactical vehicles lease
I.:OntmclS .

Jee I1A RESPONSE:              Click to add JPEG file
                         ICC I1A concurs with recommendation and will coordinate with MNF-I
to appoint NTV managef!i, from the unit's leasing the NTVs, as contracting officer's
representatives for non-tactical vehicles lease contracts.




                        GENERAL COMMEI'TS ON THE REPORT

1. Non-tactical Vehicle (NTV) management has command attention throughout MNF-I. M.\IF-I
and MNC-I have designated NTV Program Managers and established policies which have
strengthened controls over NTV management throughout fraq. MNF-I and MNC-I have
published guidance and procedures to register vehicles, tenninate leased vehicles, and to report
monthly NTV inventories throughout Iraq. In addition, MNC-I has established NTV turn-in
procedures as part of responsible drawdown. As MNF-I, MNC-l and MNS'l·C-l combine to
become United States Forces Iraq (USF-O, these policies and procedures will continue under
USF·L

2. Page 7/ 12: DoDIO rcport states implementing a centralized NTV managemc:nl PCOIXSS
should result in more cost etlective acquisition options, increased efficiencies in the contracting
process, improved NTV contract file documentation, and improved visibility ofNTVs in Iraq.

        JCC-I1i\. concurs. Centralizing management ofNTVs .....ill result in less contracting
actions and economics of scale. Reduced contracting actions will lessen the burdcn on



                                                                                                      2




                                                              27
Contracting personnel and will result in improved file documentation. By ordering in "bulk" it is
reasonable to assume that cost savings will result - economies of scale.

3. Page 14: DoDIG report states Contracting Officers award contracts for NTV s on an as-
needed basis, and oftcnleased NTVs from IUl.:al vt::wjors in :small numbers.

       Jee-IIA concurs. Contracting Officers react to customer requirements . Ifa customer
requests 1 vehicle, Contracting Officers will ~atisfy the requirement. As noted above, JCC-IIA
concurs on the recommendation to central ize the NTV management process.

4. Page 15 : DoDIG report states for the 134 contract files we reviewed at RCCs Victory, Balad
and Tikrit, over 80% did not contain a lease-versus-purchase analysis or have any vehicle
documentation to show whether vehicles complied with contract requirements.

        lCC-IIA concurs. Contracting Officers should complete a lease-versus-purchase analysis
on all vehicle requirements. Additionally, the file should contain documentation showing
compliance with the contract tenns and conditions.

5. Page 15: DoDIO report states 77% did not have COR appointment letters.

       JeC-IIA concurs. All conlral;t~ for It:ascu   vchicle~ ~hould   have a COR.

                              Click to add JPEG file
6. Page 15: DoDIG report states 57% did not contain documentation to determine why the
contract was awarded to the selected contractor.

       leC-IIA concurs. Piles should contain information supporting the award decision .

7. Page 15: DoDIG report states 54% did not contain adequate justifications for the NTVs.

       lCC-IIA concurs. Files should contain infonnation supporting the award decision .

8. Page 16: DoDIG report states contracting personnel at RCC Victory stated that it was
unreasonable to assign CURs to monitor locallcase contracts because the limited personnel had
more service contracts to monitor.

       lee-VA non-concurs. This may be true but the RCC should not bc commenting on this.
The user should comment as the COR is assigned by tht:: uscr and tht:: RCC is nut privy to Wit::r
workload.




                                                               28
